                     OFFICE   OF   INSPECTOR GENERAL




Audit Report                                                  2012-AA-C-002




            2012 Audit of the
  Consumer Financial Protection Bureau’s
      Information Security Program




                          November 15, 2012



               BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                    CONSUM ER FIN ANC IAL PR OTEC TION B UR EAU
Report Contributors
  Khalid Hasan, OIG Manager
  Joshua Dieckert, Auditor-in-Charge
  Paul Vaclavik, IT Auditor
  Ed Fernandez, Auditor
  Peter Sheridan, Senior OIG Manager
  Andrew Patchan Jr., Associate Inspector General for Audits and Attestations

Abbreviations
CFPB               Consumer Financial Protection Bureau
FISMA              Federal Information Security Management Act of 2002
NIST               National Institute of Standards and Technology
OIG                Office of Inspector General
SP 800-53          Special Publication 800-53, Revision 3, Recommended Security Controls for Federal Information
                   Systems and Organizations
Treasury           Department of the Treasury
                                 Executive Summary:
                                 2012 Audit of the
                                 Consumer Financial Protection Bureau’s
                                 Information Security Program

2012-AA-C-002                                                                                        November 15, 2012

Purpose                                  Findings

To meet our annual Federal               Overall, we found that the CFPB has taken several steps to develop,
Information Security Management          document, and implement an information security program. For example, the
Act of 2002 (FISMA) reporting            CFPB has drafted agency-wide information security and acceptable use
responsibilities, we reviewed the        policies, as well as procedures for continuous monitoring and risk
information security program and         management. In addition, the CFPB has developed an inventory of FISMA-
practices of the Consumer Financial      reportable systems and a baseline of security controls for its information
Protection Bureau (CFPB).                systems. However, we found that additional steps are needed to fully
                                         develop, document, and implement an information security program that is
Background                               consistent with FISMA.

FISMA requires federal agencies to       Recommendations
develop, document, and implement
an agency-wide information               We recommend that the Chief Information Officer develop and implement a
security program. FISMA also             comprehensive information security strategy that identifies specific goals,
requires each agency inspector           objectives, milestones, and resources to establish a FISMA-based information
general to conduct an annual             security program; finalize the agency-wide information security policy and
independent evaluation of its            develop procedures to facilitate the implementation of the policy; and analyze
agency’s information security            the CFPB's contractor oversight processes and information security controls
program and practices.                   for additional contractor-operated systems and take actions, as necessary, to
                                         ensure that FISMA and CFPB information security requirements are met.

                                         Management’s Response

                                         In comments to a draft of our report, the CFPB Chief Information Officer
                                         concurred with our recommendations and outlined actions that have been
                                         taken, are underway, and planned to strengthen CFPB’s information security
                                         program.




Access the full report: http://www.federalreserve.gov/oig/oig_rpt_2012.htm
For more information, contact the OIG at 202-973-5000 or visit http://www.consumerfinance.gov/oig.
Summary of Recommendations, Report No. 2012-AA-C-002
 Rec. no.   Report page no.                     Recommendation                               Responsible office
   1              5           Develop and implement a comprehensive                    Office of the
                              information security strategy that identifies specific   Chief Information Officer
                              goals, objectives, milestones, and resources to
                              establish a FISMA-based information security
                              program.
   2              5           Finalize the CFPB’s agency-wide information              Office of the
                              security policy and develop procedures to facilitate     Chief Information Officer
                              the implementation of the policy.
   3              5           Analyze the CFPB's contractor oversight processes        Office of the
                              and information security controls for additional         Chief Information Officer
                              contractor-operated systems and take actions, as
                              necessary, to ensure that FISMA and CFPB
                              information security requirements are met.
November 15, 2012

MEMORANDUM

TO:            Chris Willey
               Chief Information Officer, Consumer Financial Protection Bureau

FROM:          Andrew Patchan Jr.
               Associate Inspector General for Audits and Attestations

SUBJECT:       OIG Report: 2012 Audit of the Consumer Financial Protection Bureau’s Information
               Security Program

The Office of Inspector General (OIG) of the Consumer Financial Protection Bureau (CFPB) is
pleased to present the results of our audit of the CFPB’s information security program. As the CFPB
continues to enhance its information security program, we are providing three recommendations that
we believe will further strengthen the CFPB’s efforts to meet Federal Information Security
Management Act of 2002 requirements.

We provided a draft of our report to you for review and comment. In your response, included as
appendix A, you concurred with our recommendations and outlined actions that have been taken, are
underway, and planned to strengthen CFPB’s information security program. As part of our audit, we
also reviewed security controls for a contractor-operated system. The results of our review of security
controls for this system will be transmitted under separate, restricted cover. In addition, we will utilize
the results of our review of the CFPB’s information security program and practices to respond to
specific questions in the Department of Homeland Security’s FY 2012 Inspector General Federal
Information Security Management Act Reporting Metrics. We appreciate the cooperation we received
from the CFPB during our review. Please contact me if you would like to discuss this report or any
related issues.

cc:   Victor Prince, Chief Operating Officer, CFPB
      Zach Brown, Chief Information Security Officer, CFPB
      Marla A. Freedman, Assistant Inspector General for Audit, Office of Inspector General,
         Department of the Treasury
      Mark Bialek, Inspector General
      J. Anthony Ogden, Deputy Inspector General
Contents


Introduction .............................................................................................................. 1
          Objectives........................................................................................................ 1
          Background ..................................................................................................... 1
Findings .................................................................................................................... 3
          Comprehensive Strategy Should Be Developed to Implement a
          FISMA-based Information Security Program ................................................... 3
          Information Security Policy Should Be Finalized and Implementing
          Procedures Developed .................................................................................... 4
          Information Security Oversight Should Be Strengthened for
          Contractor-operated Systems.......................................................................... 4
Recommendations ................................................................................................... 5
Management’s Response ........................................................................................ 5
Appendix A—Management’s Response ................................................................. 6
Appendix B—Scope and Methodology .................................................................. 9
Introduction


Objectives
          Our specific audit objectives, based on the Federal Information Security Management Act of
          2002 (FISMA), were to evaluate the effectiveness of the Consumer Financial Protection
          Bureau’s (CFPB’s) security controls and techniques and CFPB’s compliance with FISMA and
          related information security policies, procedures, standards, and guidelines. Our scope and
          methodology are detailed in appendix A.


Background
          FISMA provides a framework for ensuring the effectiveness of information security controls
          over federal operations and assets and a mechanism for oversight of federal information
          security programs. 1 FISMA requires agencies to develop, document, and implement an
          agency-wide information security program to provide information security for the information
          and information systems that support the operations and assets of the agency, including those
          provided by another agency, contractor, or other source. Agency information security
          programs must provide for, among other things, periodic risk assessments, policies and
          procedures based on the risk assessments, periodic testing and evaluation of the effectiveness
          of policies and procedures, security planning, security awareness training, and continuity of
          operations. FISMA also requires each agency inspector general to perform an annual
          independent evaluation of the information security program and practices of its respective
          agency to determine the effectiveness of such program and practices.

          The Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010 created the CFPB
          and charged it with the responsibility of regulating the offering and provisioning of consumer
          financial products and services.2 The CFPB formally began operations in July 2011 with a
          central mission of making markets for consumer financial products and services work for
          Americans. The CFPB has established an Office of the Chief Information Officer, which is
          responsible for the implementation and maintenance of an agency-wide information security
          program.

          In our 2011 FISMA audit report, we noted that as the CFPB began operations, it was relying
          on the information security program and systems of the Department of the Treasury
          (Treasury). Since then, the CFPB has begun to develop its agency-wide information security
          program using the National Institute of Standards and Technology (NIST) Risk Management
          Framework as a model.3 As part of this approach, the agency is developing processes to


1.   Title III, Pub. L. No. 107-347 (December 17, 2002).
2.   Pub. L. No. 111-203, Title X, 124 Stat. 1955 (July 21, 2010).
3.   NIST Special Publication 800-37, Revision 1, Guide for Applying the Risk Management Framework to Federal Information Systems: A
     Security Life Cycle Approach, February 2010.



2012-AA-C-002                                                                                                                    1
    promote near real-time risk management and on-going system authorization. The CFPB is
    also leveraging shared services and cloud computing with the objective of balancing risk, cost,
    and desired functionality. In addition, the CFPB continues to rely on Treasury for certain
    information security services, including those for remote access, configuration management,
    incident response, and identification and authentication.




2                                                                                   2012-AA-C-002
Findings


       Overall, we found that the CFPB has taken several steps to develop, document, and implement
       an information security program. For example, the CFPB has drafted agency-wide
       information security and acceptable use policies, as well as procedures for continuous
       monitoring and risk management. In addition, the CFPB has developed an inventory of
       FISMA-reportable systems and a baseline of security controls for CFPB information systems.
       However, we found that additional steps are needed to fully develop, document, and
       implement an information security program that is consistent with FISMA.


Comprehensive Strategy Should Be Developed to Implement a
FISMA-based Information Security Program
       The CFPB has not established a comprehensive information security strategy to guide
       the implementation of an agency-wide information security program. CIO officials
       stated that this strategy has not been developed because the agency has been focused
       on formalizing organizational structures and achieving operational capabilities. In
       addition, an adequate information security strategy should align with CFPB
       organizational and business level strategies, which are still being developed. The
       CFPB has issued a draft strategic plan for 2013–2018 outlining its goals, desired
       outcomes, performance measures, and performance indicators at the organizational
       level. To promote transparency, the agency has asked the public for comments and
       feedback on the plan.

       NIST Special Publication 800-100, Information Security Handbook: A Guide for
       Managers, recommends as a best practice that federal organizations establish a
       comprehensive strategy to enable the development, institutionalization, assessment,
       and improvement of an agency-wide information security program. The strategy
       should be documented in an information security strategic plan and include a high-
       level plan for achieving information security goals and objectives, including short- and
       mid-term objectives and performance targets.

       In the absence of an information security strategy, the CFPB’s efforts to implement an
       agency-wide information security program may not adequately align with the goals
       and needs of the agency. As the CFPB continues to enhance its information security
       program, we recommend that the Chief Information Officer (CIO) develop and
       implement a comprehensive information security strategy that identifies specific goals,
       objectives, milestones, and resources to establish a FISMA-based information security
       program.




2012-AA-C-002                                                                                   3
Information Security Policy Should Be Finalized and Implementing
Procedures Developed
          The CFPB has developed a draft agency-wide information security policy that delineates roles
          and responsibilities and specifies minimum information security controls for all agency
          systems. The CFPB has also developed draft procedures for continuous monitoring and risk
          management. While we found that the Chief Information Officer was performing several
          FISMA-based information security activities, the CFPB’s agency-wide information security
          policy and procedures were not finalized. CIO officials stated that the agency was focused on
          formalizing organizational structures and achieving operational capabilities. As such, it had
          not prioritized the completion of agency-wide information security policy and procedures.

          FISMA requires that an agency’s information security program include policies and
          procedures that (1) are based on risk assessments, (2) cost effectively reduce information
          security risks to an acceptable level, and (3) ensure that information security is addressed
          throughout the life cycle of each agency information system. In addition, NIST Special
          Publication 800-53, Revision 3, Recommended Security Controls for Federal Information
          Systems and Organizations (SP 800-53), recommends that information security policies
          address purpose, scope, roles, responsibilities, management commitment, coordination among
          organization entities, and compliance. SP 800-53 also recommends the development of
          formal, documented procedures to facilitate the implementation of the policies.

          As a result of the lack of an agency-wide information security policy and procedures, we
          found inconsistent information security processes, undefined roles and responsibilities, and
          limited documentation to support risk-based decisions. In addition, we identified a contractor-
          operated system that did not meet a number of FISMA and NIST requirements. As such, we
          recommend that the CIO finalize the CFPB’s agency-wide information security policy and
          develop procedures to facilitate the implementation of the policy.


Information Security Oversight Should Be Strengthened for
Contractor-operated Systems
          The CFPB utilizes a number of contractor-operated systems, including several that are hosted
          in a cloud environment. As part of its contractor oversight process, the CFPB performs
          security assessments and receives periodic security updates for contractor-operated systems.
          For a contractor-operated system that we reviewed, we found that the CFPB needs to improve
          its oversight process to ensure that FISMA requirements are met. We identified a number of
          management, operational, and technical control weaknesses for this system. 4 According to
          CIO officials, these weaknesses existed primarily because the CFPB did not have enough staff
          to effectively monitor the contractor’s compliance with FISMA requirements.

          FISMA requires agencies to provide information security controls for information systems
          used or operated by an agency, including those provided by a contractor of an agency. In
          addition, SP 800-53 requires organizations to define and document government oversight and
          user roles and responsibilities regarding external information security services as well as
          monitor security control compliance by external service providers.


4.   The results of our review of the contractor-operated system will be transmitted under separate, restricted cover.



4                                                                                                                        2012-AA-C-002
       Based on the weaknesses we identified, the CFPB has limited assurance that FISMA and
       CFPB information security requirements are being met for the contractor-operated system that
       we reviewed. We will provide the results of our review of this system and specific
       recommendations under separate, restricted cover. Based on our findings regarding this
       system, we recommend that the CIO analyze the CFPB's contractor oversight processes and
       information security controls for additional contractor-operated systems and take actions, as
       necessary, to ensure that FISMA and CFPB information security requirements are met.


Recommendations
       We recommend that the Chief Information Officer:

       1. Develop and implement a comprehensive information security strategy that identifies
          specific goals, objectives, milestones, and resources to establish a FISMA-based
          information security program.

       2. Finalize the CFPB’s agency-wide information security policy and develop procedures to
          facilitate the implementation of the policy.

       3. Analyze the CFPB's contractor oversight processes and information security controls for
          additional contractor-operated systems and take actions, as necessary, to ensure that
          FISMA and CFPB information security requirements are met.


Management’s Response
       In comments to a draft of our report, included as appendix A, the CFPB Chief Information
       Officer concurred with our recommendations and outlined actions that have been taken, are
       underway, and planned to strengthen CFPB’s information security program.




2012-AA-C-002                                                                                       5
Appendix A
Management’s Response




6                       2012-AA-C-002
2012-AA-C-002   7
8   2012-AA-C-002
Appendix B
Scope and Methodology

       To accomplish our audit objectives, we reviewed the CFPB’s program-level information
       security policies and procedures, analyzed system security documentation, met with CFPB
       information security officials and contractors, and observed and tested specific system
       controls. We also reviewed the CFPB’s information security policies, procedures, and
       controls for a select contractor-operated system listed on the CFPB’s FISMA inventory. Our
       audit scope did not include a review of information security controls for Treasury information
       systems used by the CFPB.

       We conducted our fieldwork from July 2012 to October 2012 in accordance with generally
       accepted government auditing standards. Those standards require that we plan and perform
       the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
       findings and conclusions based on our audit objectives. We believe that the evidence we
       obtained provides a reasonable basis for our findings and conclusions.

       As noted, the CFPB relies on certain security services that are part of Treasury’s information
       security program. These services include remote access, configuration management, incident
       response, and identification and authentication. As part of our response to the Department of
       Homeland Security’s FISMA reporting questions for inspectors general, submitted under
       separate cover, we relied on the work performed by the Treasury OIG, as part of its FISMA
       review of Treasury’s information security program, for these services. We performed
       sufficient, appropriate procedures to meet generally accepted government auditing standards
       requirements for relying on the work of the Treasury OIG, including the following:

       •   We obtained evidence on the qualifications and independence of contractor staff
           performing the FISMA audit of Treasury for the Treasury OIG.
       •   We reviewed Treasury OIG’s FISMA audit plan, audit report, and work paper
           documentation.
       •   We met with Treasury OIG officials to gain an understanding of how they performed their
           FISMA oversight of Treasury’s information security program, including reviewing the
           work performed by contractor staff.
       •   We discussed the contractor’s audit approach and results with contractor staff.




2012-AA-C-002                                                                                       9
 www.federalreserve.gov/oig
www.consumerfinance.gov/oig
          11/12
